U.S. Department of the Interior
Office of Inspector Gen #era1




             AUDIT REPORT


CONCESSIONER IMPROVEMENT ACCOUNTS,
        NATIONAL PARK SERVICE

              REPORT NO. 98-I-389
                 MARCH 1998




                                     J
                                                                          C-SP-NPS-033-96        -


             United States Department                        of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                                                              MAR
                                                                31 1998

Memorandum

To:         Assistant Secretary for Fish and Wildlife and Parks

From:


Subject:    Audit Report on Concessioner Improvement Accounts, National Park Service
            (No. 98-I-389)

This report presents the results of our audit of concessioner improvement accounts
maintained by National Park Service concessioners. The objective of the audit was to
determine whether the amounts deposited into concessioner improvement accounts and the
expenditures from those accounts were appropriate. At the request of the Park Service, we
also reviewed the adequacy of its procedures for concessioner improvement accounts.

We concluded that projects financed with concessioner improvement account funds
enhanced visitor facilities in the park units. However, the Park Service had not provided
sufficient and timely guidance to ensure that concessioner improvement account funds were
used appropriately and allowed concessioners to use these funds before procedures were
issued. Although the Park Service did issue procedures in August 1995 relating to the use
of these funds, the procedures did not provide sufficient guidance for determining the types
of projects that could be funded or for establishing cost-sharing agreements for projects that
benefited both the Park Service and the concessioner. We also found that the Park Service
(1) did not amend existing concession contracts so that they would be in compliance with the
new procedures, (2) approved projects which were not in conformance with the procedures,
and (3) did not enforce concessioner compliance with contract provisions. As a result,
concessioner improvement account funds were used for (1) projects initiated before the           l



procedures were issued, that did not directly support concession operations, or that benefited
both the concessioner and the Park Service and would have been appropriate for cost sharing
($17.5 million); (2) expenditures related to concession operations that would not be
considered proper uses of the funds under the new procedures ($1.2 million); and (3) capital
improvement projects for which the concessioner was improperly granted a possessory
interest ($823,000). Furthermore, in the absence of sufficient guidance on the use of
improvement account funds, there is no assurance that the funds will be used properly or
consistently throughout the Park Service. In addition, we identified one concessioner that
did not meet its capital improvement program expenditure requirement by about $100,000.
Regarding deposits to concessioner improvement accounts, we found that two concessioners
made improper deductions from recorded gross receipts in determining the amounts required
to be deposited into concessioner improvement accounts. As a result, these concessioners
should have deposited additional funds of about $124,800, excluding interest, into these
accounts.

In the January 21,1998, response (Appendix 3) from the Director, National Park Service, the
Park Service partially concurred with Recommendation A. 1, did not address all parts of
Recommendation A.2, and concurred with Recommendation B. 1. Based on the response,
we consider Recommendation B.l resolved and implemented and request that the Park
Service reconsider its responses to Recommendations A.1 and A.2, which are unresolved
(see Appendix 4). The Park Service also provided comments on the text of the report, which
we have considered in preparing the tial report. One of these comments related to the Other
Matters section of the draft report, which discussed a special set-aside arrangement at
Yellowstone National Park. Based on the Park Service’s comments, we agree that this
arrangement was not a concessioner improvement account, and accordingly, we excluded the
Others Matters section from the final report.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by May 22, 1998. The response should provide the information
requested in Appendix 4.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of National Park Service personnel in the conduct of our audit.
                                           CONTENTS


                                                                                                                          Page

INTRODUCTION        ....................................................... 1

     BACKGROUND            ..................................................                                                   .
     OBJECTIVE AND SCOPE .........................................                                                            .2
     PRIOR AUDIT COVERAGE                       .......................................                                       .2

FINDINGS AND RECOMMENDATIONS                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

     A. IMPROVEMENT ACCOUNT PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . .4
     B. DEPOSITS TO CONCESSIONER IMPROVEMENT ACCOUNTS . . . . .15

APPENDICES

     1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . . . . . .17
     2. SITES VISITED, TYPES OF ACCOUNTS
        REVIEWED, AND CONCESSIONER DEPOSITS
        AND EXPENDITURES . . . . ..,.*,...................,..,,....**.                             18
     3. NATIONAL PARK SERVICE RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . 19
     4. STATUS OF AUDIT REPORT RECOMMENDATIONS                         . . . . . . . . . . . . . .23
                                       INTRODUCTION

BACKGROUND

Since 1981, the National Park Service has included provisions in some of its concession
contracts that require concessioners to deposit a percentage of gross receipts into interest-
bearing bank accounts. (For the purpose of this report, these accounts will be referred to as
concessioner improvement accounts’). Funds from these accounts are to be spent by the
concessioners on projects approved by the Park Service for improving park or concessioner
property related to concession operations. Generally, deposits are made to these accounts
in lieu of the concessioners’ paying fm&.ise fees to the Park Service that must be deposited
into the general fund of the U.S. Treasury and are not available to the Park Service. Before
concessioner improvement accounts were established, improvements to Park Service-owned
facilities assigned to concessioners were funded by the concessioners through a building
improvement program and by the Park Service with appropriated funds. The funds deposited
into and expended from concessioner improvement accounts are outside the appropriations
process and supplement the appropriations made to the Park Service for improving visitor
facilities. In fiscal year 1995, there were approximately 40 concessioner improvement
accounts at 19 locations, which had annual deposits of about $19 million and expenditures
of about $11 million. The Park Service has informed the Congress through the budget
process of its use of concessioner improvement accounts.

In a February 7, 1995, opinion, the Offtce of the Solicitor concluded that the inclusion of
improvement account provisions in concession contracts was authorized by law and stated
that the concessioner improvement accounts ensured that concessioners have the financial
ability to provide required visitor facilities. The Solicitor also concluded that the accounts
should be used for activities that “directly support concession operations” and recommended
that the Park Service issue procedures for these accounts. The Solicitor subsequently
determined, in a March 1996 memorandum, that a construction set-aside account at Glen
Canyon National Recreation Area funded by a visitor surcharge (4 l/2 percent of gross
receipts) and concessioners’ contributions (l/2 percent of gross receipts) was also a form of
a concessioner improvement account.

The Park Service issued procedures for administering concessioner improvement accounts
on August 11,1995. These procedures identify two types of accounts: capital accounts and
government improvement accounts. Capital accounts are to be used for significant capital
improvements of a nonrecurring nature to government-owned or concessioner property or
for the construction of new facilities that “directly support concession operations.”
Government improvement accounts are to be used for major repairs and improvements to
government-owned structures assigned to concessioners for concession purposes. Park



‘The various concession contracts use different terms for individual concessioner improvement accounts,
including capital, capital improvement, construction and improvement, construction set-aside, and government
improvement accounts.

                                                     1
Service procedures also state that capital and government improvement accounts are not to
be used for routine maintenance and repairs and require that all projects undertaken with
concessioner improvement account funds be approved in advance by the applicable Park
Service regional director.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the amounts deposited into concessioner
improvement accounts and the expenditures from those accounts were appropriate. At the
request of the Park Service, we also reviewed the adequacy of the Park Service’s August 11,
1995, procedures for concessioner improvement accounts. In total, we reviewed eight
accounts at five locations, which had fiscal year 1994 and 1995 deposits totaling about
$25.6 million and expenditures totaling about $16.9 million (see Appendix 2). Although we
focused our audit on improvement account projects that were active during 1994 and 1995,
our scope included transactions that had taken place since project initiation. For example,
at Glen Canyon we reviewed transactions that occurred since project initiation in 1987.

Our review was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances.

As part of our review, we evaluated the system of internal controls related to concessioner
improvement accounts to the extent that we considered necessary. The internal control
weaknesses identified are discussed in the Findings and Recommendations section of this
report. The recommendations, if implemented, should improve internal controls over
improvement account deposits and expenditures. We also reviewed the Department of the
Interior’s Annual Statement and Report, which is required by the Federal Managers’
Financial Integrity Act of 1982, for fiscal year 1995 and found that no material weaknesses
were reported which related to the objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 6 years, the Office of Inspector General has issued three audit reports and the
General Accounting Office has issued two reports on selected aspects of concessioner
improvement accounts as follows:

        - The Office of Inspector General report “Concessions Management, National Park
Service” (No. 94-I-121 l), issued in September 1994, recommended that the Park Service
obtain a legal opinion on the establishment and use of concessioner improvement accounts
and implement internal controls over the deposit and expenditure of account funds. Based
on a February 1995 Solicitor’s opinion, the Park Service issued concessioner improvement
account procedures in August 1995.

        - The Office of Inspector General report “Operations of National Park Concessions,
Inc., Under Contract No. CC-0680-2-0001 With the National Park Service” (No. 96-E-541),

                                              2
issued in March 1996, contained recommendations that the Park Service, in regard to
concessioner improvement accounts, should (1) require the concessioner to reimburse
ineligible expenditures, (2) establish new project initiation priorities, (3) amend the contract
as it related to concessioner bank accounts and interest earned, and (4) ensure that
administrative costs charged were supported. Because of the recency of this report, we did
not follow up on the recommendations. However, the conditions noted were considered
during our review at other parks.

         - The Office of Inspector General report “National Park Service Financial Statements
for Fiscal Years 1995 and 1996” (No. 97-I-936), issued in June 1997, concluded that the Park
Service had not established a process for collecting reliable and timely information on the
number of special concession accounts (including concessioner improvement accounts) and
their deposits and disbursements to ensure that the information it reports in its notes to the
financial statements is complete and accurate. However, the Park Service disagreed with the
recommendation to establish such a process, stating that it did not plan to report this
information in the notes to the financial statements in future years. Accordingly, we referred
the recommendation to the Assistant Secretary for Policy, Management and Budget for
resolution.

         - The General Accounting Office report “Policies and Practices for Determining
Concessioners’ Building Use Fees, National Park Service” (No. GAO/T-RCED-92-66),
issued in May 1992, covered testimony before the Environment, Energy, and Natural
Resources Subcommittee, Committee on Government Operations, House of Representatives.
In its report, the General Accounting Office recommended that the Park Service develop
specific policies, methodologies, and guidelines on establishing, administering, and tracking
set-aside (concessioner improvement) accounts and other contractual agreements for repairs,
maintenance, and improvements to Federally owned facilities used by concessioners. Our
current review found that the Park Service had complied with this recommendation with the
issuance of its procedures in August 1995.

        - The General Accounting Office report “Information on Special Account Funds at
Selected Park Units, National Park Service” (No. GAO/RCED-96-90), issued in May 1996,
contained background and financial information for each of eight different types of funds,
including those from concessioner improvement accounts, received by park units that were
not subject to the annual appropriations process.      The report did not contain any
recommendations.




                                               3
                  FINDINGS AND RECOMMENDATIONS

A. IMPROVEMENT ACCOUNT PROJECTS

Overall, we concluded that the projects funded by concessioner improvement accounts
enhanced visitor facilities in the parks. Without concessioner improvement account funds,
many of the new park facilities may not have been built and many of the historical structures
in the parks may have deteriorated further. However, we found that the Park Service had not
provided clear, sufficient, and timely guidance to ensure that account funds were used
appropriately and had allowed concessioners to use these funds before the procedures were
issued. Although the major concession contracts at four of the five parks we reviewed and
the Park Service concession improvement account procedures issued in August 1995 state
that account funds were to be used for improvements that “directly support concession
operations,” neither the contracts nor the procedures adequately define the term “directly
support concession operations” or provide sufficient guidance on the appropriate uses of
account funds.2 We also found that the procedures did not provide sufficient guidance on
cost-sharing arrangements for projects which benefited both the concessioner and the Park
Service. Further, the Park Service did not amend existing concession contracts that
contained provisions which were in conflict with the new procedures and did not enforce
concessioner compliance with contract provisions. As a result, concessioner improvement
account funds were used or planned for (1) projects that did not directly support concession
operations or that benefited both the Park Service and concessioners and would have been
appropriate for cost sharing ($17.5 million), (2) expenditures that related to concession
operations but that would not be considered proper uses of the funds under the new
procedures ($1.2 million), and (3) capital improvement projects for which the concessioner
was improperly granted a possessory interest ($823,000).3 Furthermore, in the absence of
sufficient guidance, there is little assurance that improvement account funds will be used
appropriately and consistently throughout the Park Service. In addition, we identified one
concessioner that did not meet its capital improvement program expenditure requirement by
about $100,000.

Concessioner Improvement Account Procedures

The Park Service allowed the parks to establish concessioner improvement accounts and to
initiate projects before it established procedures for the use of these accounts. At least 35
of the 40 concessioner improvement accounts were established before the August 1995
procedures were issued. Although the major concession contracts at four of the five parks
we reviewed state that capital account funds can be used only for projects that “directly



‘The concession contracts we reviewed at Yellowstone National Park, which was the first Park Service unit
to establish an improvement account, did not contain this statement.

%ese amounts included expenditures from project initiation through fiscal year 1995, or just after issuance
of the Park Service’s procedures.

                                                     4
                                                                                                                   c




support concession operations,” we concluded that the contracts did not clearly define
“directly support” or provide sufficient guidance on the appropriate uses of account funds to
address the various circumstances surrounding account expenditures or contain provisions
for cost-sharing arrangements. As a result, concessioner improvement account funds of
$17.4 million4 and $120,000 were used for some projects at Glen Canyon National
Recreation Area and Mount Rushmore National Memorial, respectively, that, in our opinion,
did not “directly support concession operations,” benefited both concessioner and park
operations and may have been appropriate for cost sharing, and/or may not have been
considered proper uses of account funds under the new procedures. For example, at Glen
Canyon, improvement account funds were used for projects such as comfort stations; a
visitor center; shelters; landscaping; aerial mapping; water quality studies; road chip sealing;
directional signs; the elimination of drainage problems; a school building for children of
concessioner and Park Service employees; and several projects which benefited both
concessioner and Park Service operations such as sewer system upgrades, water storage and
distribution systems, electrical system improvements, boat ramps and related infrastructure,
pedestrian trails, breakwaters, and road and parking lot expansion and paving.’ We also
noted that Glen Canyon had planned to conduct similar projects after fiscal year 1995. At
Mount Rushmore, improvement account funds were used for projects such as removing
asbestos from an old concessioner building that was converted to park administrative offices,
parking lot stairways, and a nature trail.

In response to a February 1995 opinion and recommendation from the Office of the Solicitor,
the Park Service issued procedures in August 1995 for administering concession
improvement accounts. The procedures describe the types of projects and expenditures that
are considered proper or improper uses of concessioner improvement accounts. Specifically,
proper uses of capital accounts include projects that involve the “rehabilitation or
construction of new facilities used directly to house or otherwise provide services to park
visitors (such as hotels, restaurants, gift shops, and service stations) as well as concessioner
support facilities necessary for the functioning of the primary visitor facilities.” The
procedures also authorize the use of these accounts on a shared-cost basis to provide
infrastructure facilities that serve both Park Service and concessioner visitor facilities.
Improper uses of capital accounts, according to the procedures, include projects that do not
“directly support concession operations” and that are for general park purposes such as
resource protection and ancillary Park Service management. These projects would include



%his amount includes $2.8 million for the construction of a school. Prior to construction, a regional solicitor
stated, “The construction of a school directly supports concession activities by providing necessary educational
opportunities for dependents of employees of the Concessioner and the NPS vational Park Service].”
However, the new procedures, which were based on the Solicitor’s February 1995 opinion, state that
improvement account funds cannot be used to construct school facilities.

5Park Service employees at Glen Canyon provided information showing that appropriated funds were spent
on construction and cyclic maintenance of similar projects that benefited the Park Service, as well as the
concessioner, and stated that these expenditures constituted cost sharing. However, in the absence of
cost-sharing guidelines, there is no basis for dete mining whether these expenditures met the Park Service’s
intent for cost-sharing arrangements.

                                                       5
constructing or repairing Government visitor facilities, such as visitor centers, interpretative
facilities, entrance stations, restrooms, roads, and parking lots, as well as Government
support facilities, such as employee housing, maintenance buildings, administrative
buildings, and school buildings.

We concluded, however, that the August 1995 procedures did not provide clear and sufficient
guidance on the use of improvement account funds. For example, although the procedures
state that the construction or repair of facilities such as parking lots, roads, or school
buildings is not a proper use of improvement account funds, there may be instances where
such facilities “directly support concession operations” or support both the concessioner and
the Park Service and may be appropriate for cost sharing. Further, although the procedures
cite instances where cost-sharing arrangements may be appropriate, the procedures did not
provide sufficient guidance on establishing such arrangements, including methodologies for
allocating costs.

At the time of our review, the respective park managers indicated that they believed that
concessioner improvement accounts could be used for construction or rehabilitation projects
which directly affected park visitors, whether or not the projects enhanced the concession
facilities. They also indicated that several of the projects funded prior to the procedures
represented an appropriate use of the accounts under the new procedures. As such, we
believe that the Park Service needs to provide additional guidance in its procedures regarding
the proper uses of improvement account funds.

Concession Contract Provisions

Prior to the issuance of the August 1995 procedures, concessioner improvement account
funds of about $1.2 million were used or planned for purposes that would not be considered
proper uses of the funds under the new procedures. In addition, the Park Service did not
attempt to amend the contracts to conform to the procedures in those instances in which the
concession contracts included provisions that conflicted with the new procedures. Examples
of conflicting contract provisions and improper uses of funds are as follows:

     - The Park Service’s procedures state that concessioner improvement accounts “are not
to be used to pay or otherwise reimburse” Government appropriations accounts. Because the
Park Service did not issue guidelines in a timely manner, we found that concessioner
improvement account funds were used before issuance of the 1995 procedures to reimburse
Government appropriations for services costing about $127,000 that were provided by the
Park Service to concessioners as follows:

        -- Both the Wahweap and the Uplake concession contracts at Glen Canyon permitted
the improvement account to be used to reimburse the Park Service for “unprogrammed
expenses of the permitted activity incurred as a result of the account, not to exceed 5 percent
of total account expenditures.” For 1995, more than $19,000 was reimbursed from the
improvement account to the Park Service for unprogrammed expenses related to
improvement account projects at Glen Canyon. Glen Canyon officials stated that the


                                               6
unprogrammed expenses represented additional personnel services, travel, equipment, and
other costs that would not have been incurred by the Park Service had there not been an
improvement account.

        -- Concessioner improvement account funds were used at Mount Rushmore and
Yellowstone to reimburse the Park Service for expenses incurred, although the concession
contracts did not provide for reimbursement of these expenses. At Mount Rushmore, about
$67,000 was reimbursed Tom the improvement account in 1994 to the Park Service for the
salary of an on-site construction inspector (a Park Service employee) hired under a term
appointment to inspect the construction of the new concessioner restaurant and gift shop
buildings. At Yellowstone, improvement account fimds were used to reimburse the Park
Service approximately $41,000 in 1994 and 1995 for costs related to concessions
management support activities, such as engineering and project coordination.

    - The Park Service’s procedures,state that trust accounts are not permissible for the deposit
and expenditure of improvement account funds and that improvement account funds cannot
be used by concessioners to pay income taxes on interest earned from deposits made to the
accounts. Exhibit G to the Yosemite concession contract provided for the creation of a trust
arrangement for the deposit and expenditure of capital improvement account funds and
government improvement account funds. The trust agreements, which were established to
assist the concessioner in administering the improvement accounts, were executed on
November 15, 1993. Amendment 1 to the trust agreements, effective on October 1, 1994,
authorized the trustee to use funds from the capital improvement and government
improvement accounts to pay tax liabilities on the earnings of the accounts. The
concessioner used the trust agreements for the deposit and expenditure of capital
improvement funds and government improvement account funds and paid almost $3 1,000
in trust account administration fees for 1994 and 1995, including about $12,400 that was
paid after the issuance of the Park Service’s August 1995 procedures. The concessioner also
used about $27,500 during 1994 and 1995 from the capital improvement account to pay taxes
on the interest earnings of the accounts, including about $240 that was paid after the issuance
of the new procedures.

    - The Park Service’s procedures state that concessioner improvement account funds may
not be used to acquire personal property. We found that concessioner improvement account
funds were used at Yellowstone before the August 1995 procedures were issued to purchase
a tour boat during 1994, at a cost of $283,000, as permitted by Exhibit D of the concession
contract. However, we also noted that similar purchases with concessioner improvement
account funds, such as a new boat for the Bridge Bay Marina ($125,000), other specialized
vehicles ($40,000), and computer hardware and software development ($35,000), were
included in Yellowstone’s list of approved projects that was revised after the procedures
were issued.

   - The Park Service’s procedures state that concessioner improvement account funds are
not to be used for redecorating and periodic recarpeting of facilities or for furniture. We



                                               7
found that prior to the issuance of the August 1995 procedures, concessioner improvement
account funds of about $485,000 were used or planned for these purposes as follows:

         -- At Yellowstone, about $302,000 was expended from the improvement account,
primarily during 1994, for the purchase of mattresses ($196,000), furniture ($99,000), and
furniture refinishing ($7,000). Similar projects, such as additional mattress purchases,
recarpeting, and floor refinishing, had been approved for 1996, after the Park Service’s
procedures were issued, at an estimated cost of $135,000.

          -- At Glacier National Park, several recarpeting projects that were approved before
the procedures had been issued were under way or had been completed at various concession
facilities throughout Glacier at an estimated total cost of $48,000. However, during our
audit, staff at Glacier stated that they would no longer approve the funding of recarpeting
projects from the improvement account.

In addition, we noted that the major concession contract at Yosemite, which became effective
on October 1, 1993, contains a provision (Section 1O(b)( 1)) which states that “ten (10%)
percent of the funds deposited in the [capital improvement] fund shall be expended by the
Concessioner as directed by the Secretary for construction of facilities necessary for visitor
enjoyment of the area [park] even though such facilities do not directly support concession
operations required or authorized under this contract.” We found that no improvement
account funds had been expended as of June 1996 at Yosemite for such projects, although
about $407,000 (10 percent of 1995 deposits) was available for that purpose based on the
provisions of the concession contract.

To ensure that concessioner improvement account funds are used for appropriate purposes,
we believe that the Park Service should review each concession contract to identify any
provisions that are inconsistent with the August 1995 procedures and initiate action to
modify those contracts accordingly when the opportunity occurs. In the interim, the Park
Service should not approve concessioner requests to use concessioner improvement account
funds for purposes that are prohibited by the procedures or concession contracts.

Possessory Interest

The Park Service’s procedures state that concessioners will not accrue any possessory
interest in improvements made with concessioner improvement account funds.6 The
concession contract for Mount Rushmore required the concessioner to complete a
construction and improvement program at a cost not to exceed $10 million, including the
construction of a concession facility, a dormitory for concessioner employees, and support
facilities. A December 1993 amendment to the contract specified that in lieu of paying
franchise fees, the concessioner would deposit 5 percent of gross receipts into a concessioner


?l%e Park Service’s procedures regarding possessory interest are supported by a December 26,1996, opinion
from the Office of the Solicitor, which states, “Completed improvements made with funds from the special
accounts, we consider, properly may be considered as NPS wational Park Service] assets.”

                                                    8
improvement account for use on other capital improvement projects. This amendment also
specified that the concessioner was to have no ownership or possessor-y interest in
improvements made with improvement account funds. In anticipation of an estimated
$2 million cost overrun on the construction and improvement program, the Park Service
orally instructed the concessioner in September 1994 to stop making deposits to the
concessioner improvement account and to use the balance in the account to help fund the cost
overrun.    However, an amendment to the concession contract to document the oral
instructions was not executed until December 1995, after the Park Service’s procedures were
issued. The amendment was retroactive to the period prior to August 3 1,1995, and, contrary
to the concession contract and Park Service procedures, granted the concessioner a
possessor-y interest in the improvements constructed with monies accumulated in the
improvement account up to that time. We determined that the value of this possessory
interest was at least $823,000. This amount consisted of the $500,000 improvement account
balance at September 16, 1994, and an additional $323,000 that would have been deposited
into the improvement account had the concessioner continued to make deposits through
August 3 1,1995, as required by the concession contract.

Other Contract Provisions

The concession contract at Glacier requires the concessioner to undertake capital
improvements by expending annually “not less than one (1%) percent of gross receipts . . .
from the previous year on alterations, additions, improvements, and new facilities of the
character normally considered to be capital improvements under generally accepted
accounting principles.” These projects were to be in addition to those funded under Glacier’s
concessioner improvement account.

We determined that the concessioner did not meet its capital improvement program
expenditure requirement by about $100,000 for 1994 and 1995. After our fieldwork was
completed, the Superintendent sent a July 17,1996, letter informing the concessioner of this
spending shortfall and requested that the concessioner make up the $100,000 deficiency in
1996 and 1997. The concessioner did not agree that a spending shortfall existed and said that
the issue would be researched and appropriate action would be taken. Park Service officials
said that in subsequent negotiations, the concessioner agreed, effective in fiscal year 1997,
to submit a list of capital improvement projects for Park Service approval before funds are
expended to ensure that all projects are legitimate capital improvements. Park Service
officials also said that the concessioner did not agree to spend an additional $100,000 on
capital improvements as compensation for the 1994 and 1995 spending shortfall because the
Park Service had not acted in a timely manner to notify the concessioner of the capital
expenditure deficiency. We disagree with the concessioner’s position and believe that the
Park Service should require that the concessioner spend an additional $100,000 on approved
capital improvements, thereby fulfilling its contractual requirement for 1994 and 1995 capital
improvement expenditures.




                                              9
Recommendations

We recommend that the Director, National Park Service:

    1. Revise the concessioner improvement account procedures to include clear and
sufficient guidance on the use of funds in these accounts, including a clear definition of the
term “directly support concession operations,” and on cost-sharing arrangements for projects
that benefit both the concessioner and the Park Service. These guidelines should include
more specific examples of the types of projects that are appropriate uses of these funds and
the types of projects that are appropriate for cost sharing.

   2. Review each existing concession contract to identify any provisions which are
inconsistent with concession improvement account procedures and initiate action to amend
those contracts accordingly.     In the interim, the Park Service should not approve
concessioner requests to use improvement account funds for purposes that are prohibited by
the procedures. Regarding the concession contracts we reviewed, the Park Service should:

        - Amend the Mount Rushmore contract to specify that the concessioner will not have
possessory interest in facilities constructed with improvement account funds.

        - Amend the Glen Canyon contract to prohibit the use of improvement account funds
for reimbursements to Government appropriations accounts.

        - Amend the Yellowstone contract to eliminate equipment purchases as a proper use
of improvement account funds and ensure that improvement account funds are no longer
used to reimburse Government appropriations.

        - Amend the Yosemite contract to eliminate the provision that 10 percent of capital
improvement account fund deposits can be used for projects which do not directly support
concession operations, require the concessioner to terminate the trust agreements for the
deposit and expenditure of improvement account funds, and ensure that improvement
account funds are no longer used to pay the concessioner’s income taxes.

        - Ensure that the concessioner at Glacier complies with the contract requirements and
require the concessioner to spend an additional $100,000 on approved capital improvements.

National Park Service Response and Oflice of Inspector General Reply

In the January 21, 1998, response (Appendix 3) to the draft report from the Director,
National Park Service, the Park Service partially concurred with Recommendation 1 and did
not fully address Recommendation 2. Based on the response, we request that the Park
Service reconsider its responses to both recommendations, which are unresolved (see
Appendix 4).




                                             10
Recommendation      1. Nonconcurrence.

    National Park Service Response.         The Park Service disagreed with our finding
concerning the use of improvement account funds, stating that each contract which was
examined during the audit was executed prior to the current procedures and that therefore
“any comparison would be ineffectual.” The Park Service also stated that in each instance,
expenditures made with improvement account funds were consistent with the contract and
therefore appropriate. Specifically, the Park Service stated that the landscaping, aerial
mapping, road chip sealing, and elimination of drainage at Glen Canyon National Park “were
all done in conjunction with concession operations” and that the construction of the stairway
and nature trail at Mount Rushmore “was in direct support of the concession operation” and
was necessary “to provide access to the existing concessioner facility during the construction
of the new concession facility initiated in August 1994.”

 Despite its disagreement with the finding, the Park Service agreed to revise its procedures
“to more clearly define the term ‘directly support concession operations,“’ stating, “Though
our requirement that improvement accounts can only be used on facilities that directly
support concession operations has not caused a problem thus far, we can see where this could
be open to a variety of interpretations.”

The Park Service, however, did not agree to revise its procedures to include clear and
sufficient guidance for cost-sharing arrangements. The Park Service stated that in drafting
its guidelines, it “did not plan to share construction costs with concession improvement
account projects because of the unpredictability of Federal funds and the difficulty of
melding a private project with a procurement project.” The Park Service further stated that
“if the time comes that cost sharing becomes a necessity, we will develop guidelines to
address this issue.”

    OffIce of Inspector General Reply. Although the Park Service agreed to revise its
procedures to more clearly define the term “directly support concession operations,” its
comments on the audit finding raise concerns regarding what it considers to be appropriate
uses of concessioner improvement account funds. As discussed in the report, the concession
contracts at four of the five parks we reviewed required that concessioner improvement
account funds be used for projects which “directly support concession operations,” which is
also required under the new procedures. We disagree with the statement that all of the
projects we reviewed were consistent with that requirement. For example, several of the
projects we reviewed clearly did not directly benefit concession operations, such as the
construction of a building at Glen Canyon to house tire and ambulance equipment, detention
halls, associated offices (which support Park Service functions and not those of the
concessioner), and the removal of asbestos from an old building at Mt. Rushmore that was
converted to park administrative offices. Other projects appeared to benefit primarily Park
Service operations, with some benefits to the concession operations, such as the temporary
stairway at Mt. Rushmore, which was necessary to reach the monument viewing area from
the parking area and the concessions facility in the area.



                                             11
Regarding the statement that “any comparison [to the new procedures] would be ineffectual”
because the projects we reviewed were executed before the current procedures were issued,
the primary purposes of our review were (1) to determine whether concessioner improvement
accounts were used in accordance with the provisions of the concession contracts (both the
contracts and the new procedures required that funds be used for projects that “directly
support concession operations”); (2) to determine the effect of the Park Service’s delay in
issuing those procedures; and (3) to determine whether the new procedures were adequate
to address the various circumstances surrounding the expenditures of concession
improvement account funds, as requested by the Park Service. For example, based on our
review of these projects, we believe that the Park Service needs to clarify its guidance
concerning the use of improvement account funds for projects that support primarily
Government operations rather than concessioner operations. Specifically, the procedures
need to address the issue of whether it is appropriate to use these funds for projects such as
utility systems, parking lots, or boat ramps when only a small percentage of the use relates
to the concession operations. In addition, some park managers indicated that concessioner
improvement accounts could be used for construction or rehabilitation projects which
directly affected park visitors, whether or not the projects enhanced concessioner facilities.
This issue needs to be clearly addressed in the procedures.

Regarding cost sharing, the basis for the Park Service’s comment that in drafting its
guidelines “it did not plan to share construction costs with concession improvement account
projects” appears to indicate that projects that also benefit the Park Service will be fully
funded by the improvement accounts. The Park Service’s procedures clearly recognize the
potential for cost sharing “of a joint NPS [National Park Service]/concessioner infrastructure
facility, such as where the concessioner joins NPS in the construction of a sewer plant which
serves both NPS installations and concessioner visitor facilities.” Furthermore, the Park
Service did not include a detailed explanation in its response to support its decision not to
consider cost sharing “because of the unpredictability of Federal funds and the difficulty of
melding a private project with a procurement project.” Because a large number of projects
we reviewed benefited both concessioner and Park Service operations, we believe that this
issue needs to be fully addressed in the guidelines.          Accordingly, we consider the
recommendation unresolved.

Recommendation 2. Nonconcurrence.

   National Park Service Response. The Park Service stated that it “cannot unilaterally
amend concession contracts” to conform to its current procedures but that it would attempt
to amend the contracts during the contract reconsideration process. The Park Service further
stated that three of the contracts will have expired by September 2001 and that as these
contracts expire, it will “issue new contracts which will conform to our improvement
account procedures.”

In regard to amending the Mt. Rushmore contract, the Park Service stated that additional
requirements for capital improvements were placed on the concessioner which were not
anticipated when the concessioner’s original obligations were established. The Park Service


                                              12
fi.uther stated that because of these additional obligations, it allowed the concessioner to have
a possessory interest in a portion of this contribution to provide the concessioner, in
accordance with the Concessions Policy Act of 1965, “a reasonable opportunity for a profit
commensurate with the capital invested and the obligations assumed.”

In regard to requiring the concessioner at Yellowstone to deposit $65,000 into its
concessioner improvement account fund because funds were used for maintenance activities,
the Park Service stated that the expenditures were for resource management and
environmental projects but not maintenance and that it added these responsibilities to the
concessioner’s maintenance plan “only to make it clear that these would not be NPS
[National Park Service] responsibilities.”

In regard to ensuring that the concessioner at Glacier spends an additional $100,000 on
approved capital improvements, the Park Service stated that while the concessioner “had
clearly expended in excess of this amount [l percent of gross receipts] every year on
capitalized items, the dispute ceniered on whether or not these items could be considered
improvements.” The Park Service further stated that it had reached a settlement with the
concessioner that expenditures should be approved by the Park Service in advance and that
the concessioner had met the minimum expenditure requirement for fiscal year 1997.

    Offke of Inspector General Reply. Although the Park Service agreed to attempt to
amend the contracts when the opportunity occurs and to ensure that the new contracts
conform to its improvement account procedures, it did not address the recommendation as
it related to disapproving concessioner requests to use improvement account funds for
purposes that are prohibited by the procedures.

In regard to the possessory interest issue at Mt. Rushmore, the Park Service did not include
sufficient information in its response to support its position that it was necessary not only to
allow the concessioner to use these funds to meet its financial obligations under the contract
but also to grant the concessioner possessory interest in these facilities in order for the
concessioner to make a reasonable profit. In addition, the Park Service did not specifically
address amending the concession contract to specify that the concessioner will not have
possessory interest in future facilities constructed with improvement account funds.

In regard to requiring the concessioner at Yellowstone to deposit $65,000 into the
concessioner improvement account tid, the projects in question were included in the
concessioner’s maintenance plan and therefore were the concessioner’s responsibility.
However, since the Park Service authorized the concessioner to use improvement account
funds for these projects, it would not be appropriate to require the concessioner to reimburse
the improvement account at this time. As such, we have not included the finding and
recommendation in the final report.

In regard to requiring the concessioner at Glacier to spend an additional $100,000 on
approved capital improvements, the actions identified in the response are adequate to ensure
that future expenditures of capital improvement account funds are proper. However, the Park


                                               13
Service did not specifically identify the basis for its decision not to require the concessioner
to spend an additional $100,000 on approved capital improvement projects to meet its
contractual requirement. We do not believe that the Park Service’s lack of timeliness in
notifying the concessioner of the deficit is an appropriate basis for waiving the requirement.

Based on the Park Service’s response, we consider the recommendation         unresolved.




                                               14
B. DEPOSITS TO CONCESSIONER IMPROVEMENT ACCOUNTS

Two of the five concessioners we reviewed made improper deductions from their recorded
gross receipts in determining the amounts to be deposited into their concessioner
improvement accounts. Section 9 of the concession contracts defines gross receipts as the
total amount received or realized by the concessioner from all sales of services,
accommodations, materials, and other merchandise less specified exclusions. Typical
contract exclusions from gross receipts include receipts from the sale of genuine United
States Indian and native handicrafts; intracompany earnings on charges to other departments;
charges for employees’ meals, lodging, and transportation; cash discounts on sales and
purchases; and sales, excise, and gasoline taxes. However, Park Service personnel did not
adequately analyze the exclusions made by the concessioners. As a result, we estimated that
for 1994 and 1995, two concessioners should have deposited additional funds totaling about
$124,800, excluding interest, into their concessioner improvement accounts (see
Appendix 1).

We found that the concessioner at Glen Canyon deducted credit card fees and freight charges
from gross receipts in dete rmining the amounts to be deposited into the construction set-aside
account. Also, a concessioner at Glacier National Park excluded sales to employees from
gross receipts in determining the amounts to be deposited into the capital improvement
account. Section 9 of the concession contracts (franchise fees) does not permit these
exclusions and deductions from gross receipts; however, Park Service personnel did not
adequately analyze revenue exclusions to ensure that concessioners deposited funds in
accordance with the terms of the concession contracts, as required by Park Service
Directive 90-7, as amended. As a result, for 1994 and 1995, concessioners did not deposit
about $124,800, excluding interest, into a set-aside account at Glen Canyon ($119,500) and
into an improvement account at Glacier ($5,300).

Park officials took prompt action to address these issues after we brought them to their
attention. Specifically, the Superintendent at Glen Canyon, in a July 17, 1996, letter,
informed the concessioner of the improper exclusions and instructed the concessioner to
(1) stop the exclusions that were not identified as allowable in the concessioner contracts,
beginning with the next monthly deposit; (2) submit records showing the itemized exclusions
taken in calculating deposits from the inception of the program in 1987 through the current
year; and (3) submit a proposal on how to resolve the issue for all previous years in which
deposits were incorrect. Also, the Concessions Manager at Glacier, in a July 15,1996, letter,
informed the concessioner that the exclusion of sales to employees from the gross receipts
was not appropriate and requested the concessioner to deposit about $5,300 plus interest into
the capital improvement account. On August 5, 1996, the concessioner deposited $5,401
into the account to correct the error.

Recommendation

We recommend that the Director, National Park Service, ensure that park personnel
sufficiently analyze all exclusions from gross receipts and confirm that deposits to

                                              15
concessioner improvement   accounts are made in accordance with the provisions of the
concession contracts,

National Park Service Response and Offhze of Inspector General Reply

In the January 21, 1998, response (Appendix 3) to the draft report from the Director,
National Park Service, the Park Service agreed with the recommendation. Based on the
response and additional information provided by the Park Service, we consider the
recommendation resolved and implemented (see Appendix 4).




                                         16
                                                                                          APPENDIX 1



               CLASSIFICATION OF MONETARY AMOUNTS

                                                                             Potential
                       Findine Area                                    Additional Revenues

 Other Contract Provisions                                                  $100,000

 Deposits to Concession Improvement Accounts                                  124.800

   Total                                                                    $224.800’




‘This amount represents additional   funds that the concessioners   should deposit into their concessioner
improvement accounts.

                                                    17
                                                SITES VISITED, TYPES OF ACCOUNTS
                                     REVIEWED, AND CONCESSIONER DEPOSITS AND EXPENDITURES


                                        Concession
                                         Contract                                                                  1994                                 1995
              Site                       Number                   Tvoe of Account                      Dcoosita           m                                 ExoenditorG

     Mount Rushmore
      National Memorial             CC-MORU-001-93          Capital                                    $289,290               $194,470           *                   0

     Glacier National Park          CC-GLAC-002-81          Capital Improvement                        1,067,452               348,892      $466,572         $117,592

     Glen Canyon National           CC-GLCA-003-69          Construction Set Aside                     2,679,281              1,841,513    2,877,034        4,825,362
      Recreation Area               CC-GLCA-002-88          Capital Improvement                          202,103                      0    1,255,713           20,760
                                    CC-GLCA-002-88          Campground Improvement                        38,310                  1,500       41,367             1,500

     Yellowstone National Park       CC-YELL-077-91         Construction and Improvement               3,973,933              3,635,879    4,148,186         4,3 18,362

     Yosemite National Park          CC-YOSE-004-93         Capital Improvement                        4,029,832                      0    4,07 1,390        1.491.364
ca                                   CC-YOSE-004-93         Government Improvement                     222.756            35.945                                82.772

                                                                                                    %12.502.957           -




     *The account was terminated effective August 31,1995. No timds were deposited into the account by the concessioner in 1995, and the funds remaining in the account were
     to be used by the concessioner to pay for a portion of the construction cost overrun discussed in the “Possessory Interest” section of this report.
                                                                                        APPENDIX 3
                                                                                        Page 1 o'f4
                    United States Department of the Intetior
                                       NATIONAL PARR SERVICE
                                            1849 C Strce~, N.W.
                                          Washington. D.C 20‘240
INRULYREFERTO:


                                         *JIMI I       1998
      Memorandum

      To:             Robert J. Williams
                      Assistant Inspector General for Audits

      From:           Robert Stanton, Director, National Park Service

      Subject:        Draft Audit Report on Concessioner Improvement Accounts, National
                      Park Service (Assignment No. C-SP-NPS-033-96)

      We have reviewed the draft report and our comments are as follows.

      A. Improvement Account Projects

      Each contract that was examined was executed prior to the establishment of our current
      procedures and therefore any comparison would be ineffectual. In each instance,
      expenditures made from improvement accounts were consistent with the contract and
      therefore appropriate Additionally each contract that was examined by the Inspector
      General underwent legal review by the Offrce of the Solicitor as well as a 60day
      congressional review.

      While we do concur with the finding listed under “Concessioner Compliance” this issue
      is not related to “Improvement Account Projects” and therefore should be fisted in the
      “Other Matters” section of the report.


      “Directly Support Concession Operations”

      Every use of improvement account funds at Glen Canyon was consistent with the
      provisions of the contract. Furthermore, the landscaping, aerial mapping, road chip
      sealing, and elimination of drainage problems were all done in conjunction with
      concession operations.

      With regards to Mount Rushmore, construction of the stairway and nature trail using
      improvement account funds was in direct support of the concession operation. These
      projects were necessary to provide access to the existing concession facility during the
      construction of the new concession facility initiated in August of 1994. It was anticipated
      that access through a construction zone would eliminate access to the existing concession
      area during the winters of 1994- 1995 and 1995-l 996, unless a safe alternative route was




                                             19
                                                                                   APPENDIX 3
                                                                                   Page 2 Gf 4

established. Therefore access directly from the parking area by means of a stair \>myto the
orientation center and then to the concession facility by way of the nature trawlwere
constructed during the summer of 1994. The stairway was a temporary structure and
removed with the construction of the new parking facility and the nature trail rern5ns as a
permanent trail providing alternative access to all visitor facilities including the concession
facility.

Cost-Sharing Projects

All funds spent from Glen Canyon’s set-aside account were done so in accordance with
the provisions of the concession contract. The NPS, in drafking its guidelines, did not plan
to share construction costs with concessioner improvement account projects because of
the unpredictability of Federal finds and the difficulty of melding a private project with a
procurement project. However, if the time comes that cost sharing becomes a necessity,
we will develop guidelines to address this issue.

Concession Contract Provisions

The NPS cannot unilaterally amend concession contracts. As each contract expires, new
contracts will be executed which will conform with the new improvement account
procedures.

Possessory Interest

In June of 1995 the NPS recognized that insufficient finds existed to construct the
utilities, roads, landscaping and trails surrounding the new concession sales facility in Mt.
Rushmore. The contract amendment signed in December of 1993 would not provide
adequate fimds to complete the planned improvements. Therefore a contract negotiation
commenced in the summer of 1995 and concluded in August of 1995. This negotiation
required the concessioner to contribute an additional $2 million to the capital improvement
requirement of their contract. This contribution included the knds remaining in the
improvement account plus approximately $1.2 millionin additional concessioner funds. A
specifk part of that negotiation was the treatment of the approximate $800,000 in the
improvement account.

The Concessions Policy Act of 1965 states that the NPS will provide concessioners with a
reasonable opportunity for a profit commensurate with the capital invested and the
obligations assumed. Since this additional requirement on the concessioner was
unanticipated when their original obligation was set, we allowed the concessioner to have
a possessory interest in a portion of their contribution.




                                              2


                                        20
                                                                              APPENDIX 3
                                                                              Page 3 o'f4

Maintenance

These projects were resource management and environmental projects but not
maintenance. The NPS added similar responsibilities to their maintenance j*!.ai only to
make it clear that these would not be NPS responsibilities.

Concessioner Compliance

We agree with the majority of this finding regarding Glacier Park, Inc.‘s failure to meet
its contractual obligation to expend not less than one percent of their gross receipts on
capital improvements for 1994 and 1995. While the concessioner had clearly expended
in excess of this amount every year on capitalized items, the dispute centered on whether
or not these items could be considered improvements.

The Superintendent reached a settlement with the concessioner that from 1996 onward,
expenditures would be submitted for approval in advance for credit toward this contract
requirement. This agreement has been in place and in 1997 the concessionei exceeded
their minimum requirement. As we mentioned previously, this issue has no relation to
improvement accounts and therefore we ask that it be addressed under the “Other
Matters” section of your report.

Recommendations

1. Though our requirement that improvement accounts can only be used on facilities that
   directly support concession operations has not caused a problem thus far, we can see
   where this could be open to a variety of interpretations. Therefore, we agree to revise
   our improvement account procedures to more clearly define the term “directly support
   concession operations.” The target date for the revision of these procedures will be
   June 30,1998, and the responsible official will be the Concessions Program Manager.

2.    As indicated previously, the National Park Service cannot unilaterally amend
     concession contracts. Where we have the opportunity during reconsiderations we will
     attempt to amend the contracts to conform to our current procedures. Additionally,
     three of these contracts will have expired by September 2001 and as these contracts
     expire we will issue new contracts which will conform to our improvement account
     procedures.

B.   Deposits to Concessioner Improvement Accounts

The Park Service concurs with this finding and the recommendation. We will issue a
memorandum reminding our parks to review the contract provision relating to
improvement account deposits to make sure that their concessioners are in compliance
with this requirement. The target date for the issuance of this memorandum will be
February 15, 1998, and the responsible official will be the Concessions Program
Manager.




                                       21
                                                                          APPENDIX 3
                                                                          Page 4 o> 4


Other Matters

The amendment requires the concessioner to spend a minimum amount of tbdr receipts on
maintenance and is therefore not considered to be an improvement account

We have no fkther comments on the report. Please contact Robext Yearout, Concessions
Program Manager, at 202-565- 1212 if you have any questions.




                                   22
                                                                          APPENDIX 4



       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference            Status                      Action Reauired

          A.1            Unresolved.         Reconsider the recommendation. If
                                             concurrence is indicated, provide an
                                             action plan that includes target dates and
                                             titles of the officials responsible for
                                             implementation. If nonconcurrence is
                                             indicated, provide the reasons for
                                             nonconcurrence, including the basis for
                                             the Park Service’s position that
                                             cost-sharing arrangements are not
                                             appropriate and/or feasible.

          A.2            Unresolved.         Reconsider the recommendation with
                                             respect to the following: not approving
                                             concessioner requests to use account
                                             funds for purposes that are prohibited by
                                             the procedures, requiring the
                                             concessioner at Glacier to spend an
                                             additional $100,000 on approved
                                             projects, and amending the Glacier
                                             contract to specify that the concessioner
                                             will not have possessory interest in
                                             f&ue projects tided by the
                                             improvement account. If concurrence is
                                             indicated, provide an action plan that
                                             includes target dates and titles of the
                                             officials responsible for
                                             implementation. If nonconcurrence is
                                             indicated, provide reasons for the
                                             nonconcurrence.

          B.1            Implemented.        No further action is required.




                                        23
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENER& BY:


Sending written documents     to:                                Calling:



                     Within the Continental United States

U.S. Department of the Interior                            Our 24-hour
Office of Inspector Generai                                Telephone HOTLINE
1849 C Street, N.W.                                        l-800-424-5081 or
Mail Stop 5341                                             (202) 208-5300
Washington, D.C. 20240


                                                           TDD for hearing impaired
                                                           (202) 208-2420 or
                                                           l-800-354-0996


                    Outside the Continental United States


                                     Caribbean RePion

U.S. Department of the Interior                            (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                    North Pacific Reelon

U.S. Department of the Interior                            (700) 550-7428 or
Office of Inspector General                                COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
       :   Toll Free Numbers:
     :      l-800-424-5081
    :.                                 I,
            TDD l-800-354-0996
    :                                  E
   :.                                  5
           ~/Comm&ciai      Numbers:
   :         (202) 208-5300
   :
   :        T’DD (202) 208-2420        fm


   a
   :       1849 C Street, N.W.
   :
  :
           Mail stop 5341
  :        Washington. D.C. 20240
  m
 :
 :
:
:
:
:
